March 23, 2020
Via Electronic Filing and E-mail

Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Mercy San Juan Medical Center d/b/a Dignity Health v. Evan Minton
(no. 19-1135)

Dear Mr. Harris:
On behalf of Respondent Evan Minton, I write to request a 90-day extension of
Respondent’s time to file a brief in opposition to the petition for writ of certiorari from
April 16 to July 15, 2020.
Respondent seeks this extension in light of counsel’s competing personal and
professional obligations. First and foremost, the current public health emergency related
to COVID-19, resulting in a “shelter in place” order in the City and County of San
Francisco and similar orders in the city of Los Angeles and state of New York, has forced
the closure of each of the offices where Plaintiff’s counsel normally work. The public
health emergency has also forced closures of schools and child care facilities, either for
the next several weeks or indefinitely, and in turn will require Respondent’s counsel to
care for minor children during this time.
Meanwhile, in this context of reduced capacity, counsel for Respondent remain
committed to other upcoming filings, including a Petition for Review to the California
Supreme Court in Department of Fair Employment and Housing ex rel. Christynne Wood v.
CFG Jamacha d/b/a Crunch Fitness, Case # D076325, currently due April 22.
Previously scheduled personal and professional commitments, as well as new
challenges resulting from the COVID-19 public health emergency and resulting
disruptions to professional and personal life, during the initial 30-day response period
would make it difficult for counsel to prepare the response in this case.

Scott S. Harris, Clerk
March 23, 2020

Page 2

The petition for a writ of certiorari was submitted on March 13 and docketed on
March 17, 2020. Petitioner through counsel has indicated it does not object to this request.
Thank you for your attention to this matter.
Respectfully,

Amanda C. Goad
Counsel for Respondent Evan Minton
cc:

Jeffrey Harris, Counsel for Petitioners
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

